Department of Homeland Security
   Ofﬁce of Inspector General

            Information Technology Management 

            Letter for the FY 2009 Transportation 

              Security Administration Financial 

                        Integrated Audit 





OIG-10-82                                             April 2010
                                                            Office of Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 25028




                                         April 15, 2010


                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within
the department.

This report presents the information technology (IT) management letter for the FY 2009
Transportation Security Administration (TSA) financial statement audit as of September 30,
2009. It contains observations and recommendations related to information technology internal
control that were summarized in the Independent Auditors Report, dated March 17, 2010 and
presents the separate restricted distribution report mentioned in that report. The independent
accounting firm KPMG LLP (KPMG) performed the audit procedures at TSA in support of the
DHS FY 2009 financial statements and prepared this IT management letter. KPMG is
responsible for the attached IT management letter dated April 2, 2009, and the conclusions
expressed in it. We do not express opinions on TSA’s financial statements or internal control or
conclusions on compliance with laws and regulations.

The recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implementation. We trust that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                             Frank Deffer
                                             Assistant Inspector General
                                             Information Technology Audits
                                   KPMG LLP
                                   2001 M Street, NW
                                   Washington, DC 20036




April 2, 2010

Inspector General
U.S. Department of Homeland Security

Chief Information Officer
Transportation Security Administration

Chief Financial Officer
Transportation Security Administration

Ladies and Gentlemen:

We have audited the consolidated balance sheet of the U.S. Department of Homeland Security (DHS),
Transportation Security Administration (TSA) as of September 30, 2009. The objective of our audit was
to express an opinion on the fair presentation of this consolidated balance sheet. In connection with our
fiscal year 2009 audit, we also considered TSA’s internal controls over financial reporting, and tested
TSA’s compliance with certain provisions of applicable laws, regulations, contracts, and grant agreements
that could have a direct and material effect on the consolidated balance sheet. To assist in planning and
performing the audit we performed an evaluation of information technology general controls (ITGC).
The Federal Information System Controls Audit Manual (FISCAM), issued by the Government
Accountability Office (GAO), formed the basis of our ITGC evaluation procedures. The scope of the
ITGC evaluation is further described in Appendix A.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect and correct
misstatements on a timely basis. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control over financial reporting that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance. A material weakness is a
deficiency, or a combination of deficiencies, in internal control over financial reporting, such that there
is a reasonable possibility that a material misstatement of the entity’s financial statements will not be
prevented, or detected and corrected on a timely basis.

During our audit engagement, we noted certain matters in the areas of information technology (IT)
configuration management, access controls and security management with respect to TSA’s financial
systems IT general controls which we believe contribute to a DHS-level significant deficiency and that is
considered a significant deficiency in IT controls and financial system functionality. These matters are
described in the IT General Control Findings by Audit Area section of this letter.
The significant deficiency described above is presented in our Independent Auditors’ Report, dated
March 17, 2010. This letter represents the separate restricted distribution report mentioned in that report.




                                    KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                    member firm of KPMG International, a Swiss cooperative.
The significant deficiency and other comments described herein have been discussed with the appropriate
members of management, or communicated through a Notice of Finding and Recommendation (NFR).
We aim to use our knowledge of DHS’ organization gained during our audit engagement to make
comments and suggestions that we hope will be useful to you. We have not considered internal control
since the date of our Independent Auditors’ Report.
The Table of Contents on the next page identifies each section of the letter. In addition, we have
provided: a description of key TSA financial systems and IT infrastructure within the scope of the FY
2009 DHS financial statement audit engagement in Appendix A; a description of each internal control
finding in Appendix B; and the current status of the prior year NFRs in Appendix C. Our comments
related to financial management and reporting internal controls have been presented in a separate letter to
the Office of Inspector General and the DHS Chief Financial Officer dated March 23, 2010. TSA’s
response to the findings identified is attached to this letter. We did not audit TSA’s response, and
accordingly, we express no opinion on it.
This report is intended solely for the information and use of DHS management, DHS Office of Inspector
General, OMB, U.S. Government Accountability Office, and the U.S. Congress, and is not intended to be
and should not be used by anyone other than these specified parties.


Very truly yours,
                                   Department of Homeland Security 

                                Transportation Security Administration 

                               Information Technology Management Letter
                                          September 30, 2009

                  INFORMATION TECHNOLOGY MANAGEMENT LETTER 


                                        TABLE OF CONTENTS 

                                                                                                 Page
 


Objective, Scope and Approach                                                                     1
 


Summary of Findings and Recommendations                                                           2
 


IT General Control and Financial System Functionality Findings by Audit Area                      3


 Findings Contributing to a Significant Deficiency in IT                                          3


    Findings related to IT General Controls                                                       3


       Configuration Management                                                                   3
 


    Related to Financial System Functionality                                                     4


 Other Findings in IT General Controls                                                            5


       Access Controls                                                                            5


       Security Management                                                                        5


 Physical Security Testing                                                                        5


 Social Engineering Testing                                                                       6
 


Application Controls                                                                              8
 


Management’s Comments and OIG Response                                                            8
 

                                 APPENDICES
 


    Appendix                                           	Subject                                  Page


                       Description of Key Financial Systems and IT Infrastructure within the 

        A	                                                                                        9
                       Scope of the FY 2009 TSA Financial Statement Audit at TSA 



        B              FY 2009 Notice of IT Findings and Recommendations at TSA                   11
 



                           -    Notice of Findings and Recommendations – Definition of 

                                                                                                  12
                                Severity Ratings
                       Status of Prior Year Notices of Findings and Recommendations and
        C	 	           Comparison to Current Year Notices of Findings and Recommendations         17
 

                       at TSA
 

              Department of Homeland Security
           Transportation Security Administration
          Information Technology Management Letter
                     September 30, 2009



D   Management’s Comments                            21


E   Report Distribution                              22
                                   Department of Homeland Security 

                                Transportation Security Administration 

                               Information Technology Management Letter
                                          September 30, 2009



                            OBJECTIVE, SCOPE AND APPROACH

We have audited the Transportation Security Administration’s (TSA) consolidated balance sheet as of
September 30, 2009. In connection with our audit of TSA’s consolidated balance sheet we performed an
evaluation of information technology general controls (ITGC), to assist in planning and performing our
audit. The U.S. Coast Guard’s Finance Center (FINCEN) hosts key financial applications for TSA. As
such, our audit procedures over information technology (IT) general controls for TSA included testing of
the Coast Guard’s FINCEN policies, procedures, and practices, as well as TSA policies, procedures and
practices at TSA Headquarters. The Federal Information System Controls Audit Manual (FISCAM),
issued by the Government Accountability Office (GAO), formed the basis of our ITGC evaluation
procedures. The scope of the ITGC evaluation is further described in Appendix A.

The FISCAM was designed to inform financial auditors about IT controls and related audit concerns to
assist them in planning their audit work and to integrate the work of auditors with other aspects of the
financial audit. FISCAM also provides guidance to IT auditors when considering the scope and extent of
review that generally should be performed when evaluating general controls and the IT environment of a
federal agency. FISCAM defines the following five control functions to be essential to the effective
operation of the general IT controls environment.

�	 Security management (SM) – Controls that provide a framework and continuing cycle of activity for
   managing risk, developing security policies, assigning responsibilities, and monitoring the adequacy
   of computer-related security controls.
�	 Access control (AC) – Controls that limit and/or monitor access to computer resources (data,
   programs, equipment, and facilities) to protect against unauthorized modification, loss, and disclosure.
�	 Configuration Management (CM) – Controls that help to prevent the implementation of unauthorized
   programs or modifications to existing programs.
�	 Segregation of duties (SD) – Controls that constitute policies, procedures, and an organizational
   structure to prevent one individual from controlling key aspects of computer-related operations, thus
   deterring unauthorized actions or access to assets or records.
�	 Contingency Planning (CP) – Controls that involve procedures for continuing critical operations
   without interruption, or with prompt resumption, when unexpected events occur.

To complement our general IT controls audit, we also performed technical security testing for key
network and system devices. The technical security testing was performed both over the Internet and
from within select Coast Guard facilities, and focused on test, development, and production devices that
directly support TSA’s financial processing and key general support systems.

Application controls were not tested for the year ending September 30, 2009 due to the nature of prior-
year audit findings.




                                                    1
 


   Information Technology Management Letter for the FY 2009 TSA Financial Integrated Audit
                                   Department of Homeland Security 

                                Transportation Security Administration 

                               Information Technology Management Letter
                                          September 30, 2009



                  SUMMARY OF FINDINGS AND RECOMMENDATIONS

During fiscal year (FY) 2009, TSA took corrective action to address prior year IT control deficiencies.
For example, TSA made improvements in providing IT security awareness training and developing
policies and procedures over their own configuration management monitoring controls. However, during
FY 2009, we continued to identify IT general control deficiencies that impact TSA’s financial data. The
most significant issues from a financial statement audit perspective related to controls over the
development, implementation, and tracking of scripts at Coast Guard’s FINCEN. Collectively, the IT
control deficiencies limited TSA’s ability to ensure that critical financial and operational data were
maintained in such a manner to ensure confidentiality, integrity, and availability. In addition, these
deficiencies negatively impacted the internal controls over TSA financial reporting and its operation and
we consider them to collectively represent a significant deficiency for TSA under standards established by
the American Institute of Certified Public Accountants (AICPA). In addition, based upon the results of
our test work, we noted that TSA did not fully comply with the Department’s requirements of the Federal
Financial Management Improvement Act (FFMIA).
Of the 4 findings issued during our TSA FY 2009 testing, 2 were repeated findings and 2 were new IT
findings. These findings represent deficiencies in three of the five FISCAM key control areas.
Specifically the deficiencies were: 1) monitoring controls over the scripting process that are not fully
designed and operating effectively, 2) unverified access controls through the lack of comprehensive user
access privilege re-certifications, and 3) security management issues involving the terminated employee
process.
In addition, we determined that the following deficiencies identified at the Coast Guard IT environment
also impact TSA financial data: 1) inadequately designed and operating IT script change control policies
and procedures, 2) unverified access controls through the lack of user access privilege re-certifications, 3)
security management issues involving civilian and contractor background investigations, 4) physical
security and security awareness issues, and 5) procedures for role-based training for individuals with
elevated responsibilities not fully defined. We also considered the effects of financial systems
functionality when testing internal controls since key Coast Guard financial systems that house TSA
financial data are not compliant with FFMIA and are no longer supported by the original software
provider. Financial system functionality limitations add to the challenge of addressing systemic internal
control deficiencies, and strengthening the control environment at FINCEN.
These deficiencies may increase the risk that the confidentiality, integrity, and availability of system
controls and TSA financial data could be exploited thereby compromising the integrity of financial data
used by management and reported in TSA’s financial statements.
While the recommendations made by us should be considered by TSA, it is the ultimate responsibility of
TSA management to determine the most appropriate method(s) for addressing the deficiencies identified
based on their system capabilities and available resources.




                                                      2
 


   Information Technology Management Letter for the FY 2009 TSA Financial Integrated Audit
                                    Department of Homeland Security 

                                 Transportation Security Administration 

                                Information Technology Management Letter
                                           September 30, 2009


 IT GENERAL CONTROL AND FINANCIAL SYSTEM FUNCTIONALITY FINDINGS 

                          BY AUDIT AREA


Findings Contributing to a Significant Deficiency in IT at the TSA Level

Conditions: In FY 2009, the following IT general control and financial system functionality deficiencies
were identified at TSA and Coast Guard and contribute to a DHS-level significant deficiency that is
considered a significant deficiency in IT general and application controls for TSA. Our findings are
divided into two groupings: 1) IT general controls and 2) Financial system functionality.


Related to IT General Controls
IT General Controls: Configuration Management – we noted:
Coast Guard’s core financial system configuration management process controls are not operating
effectively, and continue to present risks to TSA financial data confidentiality, integrity, and availability.
Financial data in the general ledger may be compromised by automated and manual changes that are not
adequately controlled. For example, the Coast Guard uses an IT scripting process to make updates to its
core general ledger software as necessary to process financial data. However, the Coast Guard has not
fully developed testing standards to guide staff in the development and functional testing of IT scripts,
documented policies and procedures over testing plans that must be performed, and improve processes to
ensure that all necessary approvals are obtained prior to implementation. Specifically, we noted the
following Coast Guard design issues, operating effectiveness deficiencies, as well as TSA’s own
monitoring deficiencies associated with the IT script control process:
    �	 Coast Guard lacks a formal process to distinguish between the module lead approvers for script
       approval requests.
    �	 FINCEN analysts may run scripts without seeking further approval from the functional 

       supervisors for approved recurring scripts. 

    �	 Testing requirements are inconsistently followed for the testing of the recurring approval scripts
       and retaining evidence of testing.
    �	 No reconciliation between the scripts run and the changes made to the database tables is being
       performed to monitor the script activities using this report as it is too difficult to accurately and
       effectively reconcile the scripts to the audit log table changes.
    �	 The Script Tracking System does not consistently include all testing, approval, and 

       implementation documentation for all scripts. 

    �	 Variations in the way the PRP approval forms are populated and completed exist for fields such
       as financial impact, test strategy and baseline determinations.
    �	 Proper approval is not consistently obtained and documented prior to the running of each script.




                                                      3
 


   Information Technology Management Letter for the FY 2009 TSA Financial Integrated Audit
                                   Department of Homeland Security 

                                Transportation Security Administration 

                               Information Technology Management Letter
                                          September 30, 2009



Related to financial system functionality:
We noted that financial system functionality limitations are contributing to control deficiencies and
inhibiting progress on corrective actions for Coast Guard. These functionality limitations are preventing
the Coast Guard from improving the efficiency and reliability of its financial reporting processes. Some of
the financial system limitations lead to extensive manual and redundant procedures to process
transactions, verify accuracy of data, and to prepare financial statements. Systemic conditions related to
financial system functionality include:
    �	 As noted above, Coast Guard’s core financial system configuration management process is not
       operating effectively due to inadequate controls over IT scripts. The IT script process was
       instituted as a solution primarily to compensate for system functionality and data quality issues;
       and
    �	 Annual financial system account recertifications are not being performed due to limitations in the
       systems.


Recommendations: Unless specifically noted where TSA needs to take specific corrective action, we
recommend that the TSA CFO and CIO work with the DHS Office of Chief Information Officer (OCIO)
to ensure that the Coast Guard/FINCEN complete the following corrective actions:


    �	 Continue to design, document, implement, and enforce the effectiveness of internal controls
       associated with the active (current and future) scripts;

    �	 Update / develop procedures and implement technical controls in the CAS and FPD databases to
       ensure that the appropriate monitoring and review of script activities is performed and
       documented;

    �	 Continue to update script policies and procedures to include clear requirements and more detailed
       guidance over requesting recurring scripts, testing and documentation requirements,
       monitoring/audit log reviews, and blanket approval requirements. Additionally, ensure that the
       policies and procedures include detailed guidance over the requirements for the testing of scripts
       and associated test plans to ensure that the appropriate financial impact of the script is evaluated,
       reviewed by the appropriate personnel, tested in an appropriate test environment prior to being
       put into production, and documented prior to execution;

    �	 Further develop and implement policies and procedures governing the script change control
       process to ensure that all script records within the CMSS are accurate and complete; and

    �	 Address the IT system aspects associated with the financial system functionality issues listed in
       bullets No. 1 and No. 2 above, or develop compensating/mitigating controls in order to eliminate
       or reduce the associated risk.




                                                     4


   Information Technology Management Letter for the FY 2009 TSA Financial Integrated Audit
                                   Department of Homeland Security 

                                Transportation Security Administration 

                               Information Technology Management Letter
                                          September 30, 2009

TSA Specific Recommendation:
We recommend that the TSA CFO and CIO continue to develop and implement monitoring controls over
the FINCEN IT scripting process for the scripts that impact TSA. Additionally, the CFO and CIO should
ensure that the TSA policies and procedures include detailed guidance over the requirements for TSA’s
own monitoring and review of the scripts, including associated test plans to ensure that the appropriate
TSA financial impact of the script is evaluated and reviewed by the appropriate personnel, tested in an
appropriate environment prior to being put into production, and documented prior to execution.
In addition, we recommend that TSA CFO and CIO obtain the results of the study performed by an
outside contractor in FY 2009 and determine if any findings and recommendations should be considered
to strengthen internal controls.


Other Findings in IT General Controls
In addition to the configuration management and financial system functionality issues mentioned above,
the following deficiencies were also identified during our TSA IT engagement:


Access controls – we noted:
    �	 Access review procedures for key financial applications do not include the review of all user
       accounts to ensure that all terminated individuals no longer have active accounts, inactive
       accounts are locked, and privileges associated with each individual are still authorized and
       necessary.


Security management – we noted:
    �	 The computer access agreement and exit clearance procedures for TSA employees have not been
       consistently implemented; and
    �	 During our after-hours physical security and social engineering testing we identified exceptions in
       the protection of sensitive user account information. The tables below detail the exceptions
       identified at the locations tested.

Physical Security Testing

    We performed after-hours physical security testing to identify risks related to non-technical aspects of
    IT security. These non-technical IT security aspects include physical access to media and equipment
    that houses financial data and information residing on a TSA employee’s / contractor’s desk, which
    could be used by others to gain unauthorized access to systems housing financial information. The
    testing was performed at TSA Headquarters.




                                                     5
 


   Information Technology Management Letter for the FY 2009 TSA Financial Integrated Audit
                                  Department of Homeland Security 

                               Transportation Security Administration 

                              Information Technology Management Letter
                                         September 30, 2009




                Exceptions Noted                              Total Exceptions at TSA
                                                                    HQ by Type
                Passwords                                                4
                For Official Use Only (FOUO)                             0
                Keys/Badges                                              0
                Personally Identifiable Information (PII)                0
                Server Names/IP Addresses                                0
                Laptops                                                  0
                External Drives                                          0
                Credit Cards                                             0
                Classified Documents                                     0
                Other –US government official passport                   0
                Total Exceptions at TSA HQ                               4

Social Engineering Testing
Social engineering is defined as the act of attempting to manipulate or deceive individuals into taking
action that is inconsistent with DHS policies, such as divulging sensitive information or allowing /
enabling computer system access. The term typically applies to trickery or deception for the purpose of
information gathering, or gaining computer system access.

              Total Called Total Answered Number of people who provided a password
              20           5              0 Passwords Provided


Recommendations: We recommend that TSACFO and CIO take the following corrective actions:


For access controls:
    �	 Update the quarterly review process to include procedures surrounding the recertification of
       accounts with elevated privileges on the Unit Approved Plan. In addition, the recertification
       process should be documented, include supervisor written approval and occur on an at least
       annual basis.
For entity-wide security program planning and management:
    �	 Implement the Employee Exit Clearance Procedures by completing, certifying, and maintaining
       all forms required during the exit process for employees and contractors;
    �	 Implement the IT Security Policy Handbook by verifying that all TSA employees and contractors
       sign a computer access agreement prior to being granted system access;
    �	 Review its policies and procedures regarding Protection of Sensitive Information and update
       where required in order to address DHS and other Federal requirements, with emphasis being
       placed on the potential impacts of not consistently and adequately protecting this sensitive
       information; and


                                                    6


   Information Technology Management Letter for the FY 2009 TSA Financial Integrated Audit
                                    Department of Homeland Security 

                                 Transportation Security Administration 

                                Information Technology Management Letter
                                           September 30, 2009


    �	 Review, and update as required, its security awareness / training content to address the updated
       Protection of Sensitive Information policies and procedures.

Cause/Effect: Many of these deficiencies were inherited from the Coast Guard’s lack of properly
designed, detailed, and consistent guidance over financial system controls to enforce DHS Sensitive
System Policy 4300A Directive and Handbook and NIST guidance. The lack of documented and
implemented security configuration management controls may result in security responsibilities
communicated to system developers improperly as well as the improper implementation and monitoring
of system changes by Coast Guard management. This also increases the risk of unsubstantiated changes
as well as changes that may introduce errors or data integrity issues that are not easily traceable back to
the changes. In addition, it increases the risk of undocumented and unauthorized changes to critical or
sensitive information and systems. This may reduce the reliability of information produced by these
systems. In addition, reasonable assurance should be provided that financial system user access levels are
limited and monitored by both TSA and Coast Guard management for appropriateness and that all user
accounts belong to current employees. This is particularly essential for those user accounts that have
been identified as having elevated privileges. This may also increase the risk that the confidentiality,
integrity, and availability of system controls and the financial data could be exploited thereby
compromising the integrity of financial data used by management and reported in the DHS financial
statements. In addition, without proper personnel security measures in place, such as background
investigations, TSA financial data could be inappropriately manipulated by contract personnel whose
intent is to create havoc or inappropriate financial gain.

Criteria: The Federal Information Security Management Act (FISMA) passed as part of the Electronic
Government Act of 2002, mandates that Federal entities maintain IT security programs in accordance with
OMB and NIST guidance. OMB Circular No. A-130, Management of Federal Information Resources, and
various NIST guidelines describe specific essential criteria for maintaining effective general IT controls. In
addition, OMB Circular No. A-127 prescribes policies and standards for executive departments and agencies
to follow in developing, operating, evaluating, and reporting on financial management systems. FFMIA sets
forth legislation prescribing policies and standards for executive departments and agencies to follow in
developing, operating, evaluating, and reporting on financial management systems. The purpose of FFMIA
is: (1) to provide for consistency of accounting by an agency from one fiscal year to the next, and uniform
accounting standards throughout the Federal Government; (2) require Federal financial management systems
to support full disclosure of Federal financial data, including the full costs of Federal programs and activities;
(3) increase the accountability and credibility of federal financial management; (4) improve performance,
productivity and efficiency of Federal Government financial management; and (5) establish financial
management systems to support controlling the cost of Federal Government. In closing, for this year’s IT
audit we assessed the DHS component’s compliance with DHS Sensitive System Policy Directive 4300A.




                                                      7


   Information Technology Management Letter for the FY 2009 TSA Financial Integrated Audit
                                  Department of Homeland Security 

                               Transportation Security Administration 

                              Information Technology Management Letter
                                         September 30, 2009




                                APPLICATION CONTROLS

Application controls were not tested for the year ending September 30, 2009 due to the nature of the
current year’s audit findings.

             MANAGEMENT’S COMMENTS AND OIG RESPONSE
We obtained written comments on a draft of this report from TSA’s Chief Financial Officer. Generally,
the TSA management agreed with all of our findings and recommendations. TSA management has
developed a remediation plan to address these findings and recommendations. We have included a copy
of the comments in Appendix D.

OIG Response
We agree with the steps that TSA management is taking to satisfy these recommendations.




                                                    8


   Information Technology Management Letter for the FY 2009 TSA Financial Integrated Audit
                                                                               Appendix A

                             Department of Homeland Security 

                          Transportation Security Administration
 

                         Information Technology Management Letter
                                    September 30, 2009




                                    Appendix A

Description of Key Financial Systems and IT Infrastructure within
      the Scope of the FY 2009 TSA Integrated Audit at the
             Transportation Security Administration




                                            9
 


 Information Technology Management Letter for the FY 2009 TSA Financial Integrated Audit
                                                                                        Appendix A

                              Department of Homeland Security 

                           Transportation Security Administration
 

                          Information Technology Management Letter
                                     September 30, 2009

Below is a description of significant TSA financial management systems and supporting Information
Technology (IT) infrastructure included in the scope of the engagement to perform the financial
statement audit.


Locations of Audit: TSA Headquarters in Washington, D.C. and the Coast Guard Finance Center
(FINCEN) in Chesapeake, Virginia. TSA’s financial applications are hosted on the Coast Guard’s IT
platforms.

Key Systems Subject to Audit:
�	 Core Accounting System (CAS): Core accounting system that is the principal general ledger for
   recording financial transactions for the Coast Guard. CAS is hosted at FINCEN, the Coast
   Guard’s primary data center. It is a customized version of Oracle Financials.
�	 Financial Procurement Desktop (FPD): Used to create and post obligations to the core
   accounting system. It allows users to enter funding, create purchase requests, issue procurement
   documents, perform system administration responsibilities, and reconcile weekly program
   element status reports. FPD is interconnected with the CAS system and is hosted at FINCEN.
�	 Sunflower: Sunflower is a customized third party commercial off the shelf (COTS) product
   hosted at FINCEN and used for TSA and Federal Air Marshals (FAMS) property management.
   Sunflower interacts directly with the FA module in CAS. Additionally, Sunflower is
   interconnected to the FPD system.




                                               10
 


Information Technology Management Letter for the FY 2009 TSA Financial Integrated Audit
                                                                                 Appendix B
                            Department of Homeland Security 

                         Transportation Security Administration
 

                        Information Technology Management Letter
                                   September 30, 2009




                                   Appendix B 


   FY2009 Notice of IT Findings and Recommendations at the 

           Transportation Security Administration
 





                                           11
 


Information Technology Management Letter for the FY 2009 TSA Financial Integrated Audit
                                                                                                     Appendix B
                                      Department of Homeland Security 

                                   Transportation Security Administration
 

                                  Information Technology Management Letter
                                             September 30, 2009


Notice of Findings and Recommendations – Definition of Severity Ratings:

Each NFR listed in Appendix B is assigned a severity rating from 1 to 3 indicating the influence on the DHS
Consolidated Independent Auditors Report.

      1 – Not substantial

      2 – Less significant 

      3 – More significant 


The severity ratings indicate the degree to which the deficiency influenced the determination of severity for
consolidated reporting purposes.

These rating are provided only to assist the Transportation Security Administration in the development of its
corrective action plans for remediation of the deficiency.




                                                       12

      Information Technology Management Letter for the FY 2009 TSA Financial Integrated Audit
                                                                                                                                   Appendix B
                                                 Department of Homeland Security 

                                              Transportation Security Administration


                                             Information Technology Management Letter
                                                        September 30, 2009

                                             Department of Homeland Security
 

                                          Transportation Security Administration 

                                              FY2009 Information Technology 

                                     Notice of Findings and Recommendations – Detail 


                                                                                                                           New     Repeat    Risk
 NFR #                        Condition                                            Recommendation
                                                                                                                           Issue    Issue   Rating**
TSA-IT­   We were unable to obtain 6 of the 8 Employee Exit     �   Complete workgroup efforts to establish clear                     X         1
09-20     Clearance Forms and 1 of the 3 Separating Non-            ownership and corrective action plans for the
          Screener Employee and Contractor IT Certificates          conditions noted.
          sampled.                                              � Complete and maintain all forms during the exit
                                                                    process, as required by the Employee Exit
                                                                    Clearance procedures for employees and
                                                                    contractors.
                                                                � Verify that a computer access agreement is
                                                                    acknowledged by all TSA employees and
                                                                    contractors, as required by the IT Security Policy
                                                                    Handbook, and that evidence of this
                                                                    acknowledgement is maintained.
TSA-IT­   Deficiencies continued to exist over the script       Continue making improvements to implement and                        X          3
09-23     configuration management process. Specifically,       better document an integrated script configuration
          Deficiencies were noted in the areas of approvals,    management process that includes enforced
          testing, monitoring, maintaining documentation, and   responsibilities of all participants in the process, and
          audit logging.                                        the continued development of documentation
                                                                requirements. We recommend that the Coast Guard
              �   Coast Guard lacks a formal process to         should:
                  distinguish between the module lead
                  approvers for script approval requests.
                                                                �    Continue to design, document, implement, and
              �   Coast Guard Finance Center (FINCEN)                enforce the effectiveness of internal controls
                  analysts may run scripts without seeking           associated with the active (current and future)
                  further approval from the Functional               scripts.
                  Supervisors for approved recurring scripts.
                                                                With respect to procedures already in place, Coast
              �   Testing requirements are inconsistently       Guard should:

                                                                    13

               Information Technology Management Letter for the FY 2009 TSA Financial Integrated Audit
                                                                                                                                    Appendix B
                                                Department of Homeland Security 

                                             Transportation Security Administration


                                            Information Technology Management Letter
                                                       September 30, 2009

                                                                                                                            New     Repeat    Risk
NFR #                        Condition                                             Recommendation
                                                                                                                            Issue    Issue   Rating**
                 followed for the testing of the Recurring
                 Approval scripts and retaining evidence of     �    Update / Develop procedures and implement
                 testing.                                            technical controls in the Core Accounting System
            �    No reconciliation between the scripts run           (CAS) and Financial Procurement Desktop (FPD)
                 and the changes made to the database tables         databases to ensure that the appropriate monitoring
                                                                     and review of script activities is performed and
                 is being performed to monitor the script
                 activities using this report as it is too           documented.
                 difficult to accurately and effectively
                 reconcile the scripts to the audit log table   �    Continue to update script policies and procedures
                 changes.                                            to include clear requirements and more detailed
                                                                     guidance over requesting recurring scripts, testing
            �    The Script Tracking System does not                 and documentation requirements, monitoring/audit
                 consistently include all testing, approval,         log reviews, and blanket approval requirements.
                 and implementation documentation for all            Additionally, ensure that the policies and
                 scripts.                                            procedures include detailed guidance over the
                                                                     requirements for the testing of scripts and
            �    Variations in the way the Production
                                                                     associated test plans to ensure that the appropriate
                 Review Process (PRP) Approval Forms are
                                                                     financial impact of the script is evaluated,
                 populated and completed exist for fields
                                                                     reviewed by the appropriate personnel, tested in an
                 such as financial impact, test strategy and
                                                                     appropriate test environment prior to being put into
                 baseline determinations.
                                                                     production, and documented prior to execution.
            �    Proper approval is not consistently obtained
                 and documented prior to the running of each    �    Further develop and implement policies and
                 script.                                             procedures governing the script change control
        In addition, we noted the following deficiencies             process to ensure that all script records within the
        related to TSA monitoring controls over the Coast            Change Management Script System are accurate
        Guard IT script process:                                     and complete.

             �   TSA management receives a weekly script
                 report as well as a Validation of Monthly
                 Recurring Scripts from FINCEN.
                 However, we were informed that TSA was
                 still requesting modifications to the script

                                                                    14

             Information Technology Management Letter for the FY 2009 TSA Financial Integrated Audit
                                                                                                              Appendix B
                                               Department of Homeland Security 

                                            Transportation Security Administration


                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                      New     Repeat    Risk
NFR #                      Condition                                       Recommendation
                                                                                                      Issue    Issue   Rating**
                reports and had asked FINCEN to go back
                into Change Management Script System
                (CMSS) to populate missing information
                so that further analysis could be conducted.
                Additionally, during test work, we noted
                that for eight PRP forms, the financial
                impact determination did not match the
                CMSS script record field.
            �   TSA management is still in the process of
                identifying the appropriate subject matter
                experts in each area and have not
                formalized the roles and responsibilities
                surrounding this process.
            �   TSA policies and procedures developed by
                require that the TSA subject matter experts
                utilize the financial impact guidance set
                forth by FINCEN management in the PRP
                Staff Instruction. However, upon
                inspection of the PRP Instruction we
                determined that this guidance does not
                adequately include detailed criteria to
                determine financial impact.
            �    Once the financial impact is assessed and
                approved by FINCEN for the parent
                blanket approved recurring script, the
                testing of the script is not subsequently
                reviewed by an individual with financial
                reporting knowledge for child scripts that
                are run in production to ensure that
                financial impact is correct before the script
                is placed in production.
        �       TSA is not asked to review and approve all
                scripts with a financial impact – thus a


                                                                15

            Information Technology Management Letter for the FY 2009 TSA Financial Integrated Audit
                                                                                                                                      Appendix B
                                                 Department of Homeland Security 

                                              Transportation Security Administration
 

                                             Information Technology Management Letter
                                                        September 30, 2009

                                                                                                                              New     Repeat    Risk
 NFR #                        Condition                                             Recommendation
                                                                                                                              Issue    Issue   Rating**
                    Coast Guard approver may approve a script
                    that TSA is not in agreement with, or even
                    aware of.
TSA-IT­   During our after-hours physical security testing, we   Review security awareness programs designed to                X                   1
09-28     identified 4 passwords located on employee             protect financial data to help ensure that individuals are
          workstations.                                          adequately instructed and reminded of their roles in the
                                                                 protection of both electronic and physical TSA
                                                                 financial data and hardware that supports financial
                                                                 data.
TSA-IT­   Controls over the TSA quarterly access reviews for     Develop and effectively implement quarterly review            X                   1
09-29     CAS and FPD user accounts have not been                policies and procedures that include follow-up
          effectively implemented to ensure that TSA users       measures that will be enforced to ensure that users
          who no longer require system access are removed in     identified through these reviews are maintaining
          a timely manner.                                       unnecessary access have their accounts end dated in a
                                                                 timely manner.




                                                                   16

               Information Technology Management Letter for the FY 2009 TSA Financial Integrated Audit
                                                                                Appendix C
                          Department of Homeland Security
 

                        Transportation Security Administration
 

                   Information Technology Management Letter
                                  September 30, 2009




                                    Appendix C 


Status of Prior Year Notices of Findings and Recommendations And 

                          Comparison To 

     Current Year Notices of Findings and Recommendations 





                                           17
 


 Information Technology Management Letter for the FY 2009 TSA Financial Integrated Audit
                                                                                                       Appendix C
                                  Department of Homeland Security
                                Transportation Security Administration
                           Information Technology Management Letter
                                          September 30, 2009



                                                                                                  Disposition
NFR No.         Description                                                                 Closed         Repeat

 TSA-IT-08-01    The Coast Guard Finance Center (FINCEN) Continuity of                        X
                 Operations Plan (COOP) has not been updated to reflect the results
                 of testing the COOP, and the Business Continuity Plans for each
                 division have not been finalized.
 TSA-IT-08-03    During the first half of the fiscal year, the contract with the Core         X
                 Accounting System (CAS) and Financial Procurement Desktop
                 (FPD) software vendor was still in place, and no corrective action
                 had taken place related to the prior year recommendation.
                 Therefore, the risk exists that the condition was present for the
                 majority of the fiscal year. However, due to the Coast Guard
                 decision to terminate the contract with their software vendor and the
                 Coast Guard Headquarters decision to suspend all Software Problem
                 Reports (SPRs) and Software Change Requests (SCRs), the
                 condition did not exist beyond the date of these 2 events.
 TSA-IT-08-05    Coast Guard Headquarters has developed but not yet implemented               X
                 policies and procedures to require that a favorably adjudicated
                 background investigation be completed for all contractor personnel.
                 (1)
 TSA-IT-08-06    Coast Guard headquarters has not finalized the Role-Based Training           X
                 for Coast Guard Information Assurance Professionals Commandant
                 Instruction, which will require all Coast Guard members, employees,
                 and contractors with significant IT security responsibilities to receive
                 initial specialized training and annual refresher training thereafter.
                 The online Training Management Tool, which will track compliance,
                 will not be implemented until the Role-Based Training is
                 implemented. (1)
 TSA-IT-08-13    FINCEN has not completed the risk assessment for the CAS Suite,              X
                 and the CAS System Security Plan (SSP) is still in draft form.
 TSA-IT-08-15    Of the 669 employees/contractors with current access to the                  X
                 following TSA’s financial applications: CAS, FPD, and Sunflower;
                 152 employees/contractors have not completed the IT Security
                 Awareness Training.
 TSA-IT-08-18    Configuration management deficiencies continue to exist on hosts             X
                 supporting the CAS, FPD and WINS applications and the underlying
                 General Support Systems (GSS).

                  Note: Due to the nature of this testing, see the tables in the NFR
                  for the specific conditions.

 TSA-IT-08-19    Security patch management deficiencies continue to exist on hosts            X
                 supporting the CAS, FPD and WINS applications and GSS.

                  Note: Due to the nature of this testing, see the tables in the NFR


                                                          18

      Information Technology Management Letter for the FY 2009 TSA Financial Integrated Audit
                                                                                                      Appendix C
                                  Department of Homeland Security
                                Transportation Security Administration
                           Information Technology Management Letter
                                          September 30, 2009


                                                                                                 Disposition
NFR No.         Description                                                                Closed         Repeat

                  for the specific conditions.

 TSA-IT-08-20    We were unable to obtain 21 1163 Forms and 27 1402 Forms for                              09-20
                 each sample of 40. Additionally, 2 of the 13 1402 Forms received
                 were signed after the forms were requested for audit.

                 The IT Security Policy Handbook requires all TSA personnel
                 including contractors to review and sign the TSA Form 1403:
                 Computer Access Agreement. However, we were unable to obtain 7
                 of the 25, 1403: Computer Access Agreements sampled. Of the 18
                 forms we obtained, 5 were dated after the sample was requested for
                 audit.
 TSA-IT-08-21    The change control policy has not been fully completed and                  X
                 implemented. The United States Coast Guard (CG) is responsible
                 for making software changes to the CAS, FPD and Sunflower
                 applications, however, on March 31, 2008, CG HQ terminated its
                 contract with the software vendor/developer for CAS, FPD and
                 Sunflower, which has hindered TSA’s ability to fully complete and
                 implement the CAS, FPD and Sunflower change control policy.
 TSA-IT-08-22    We noted that control deficiencies still exist within the design of         X
                 FINCEN’s Configuration Management policies and procedures for
                 CAS and FPD, as well as the operating effectiveness of those
                 controls. Our test work over the design of the change controls
                 covered both periods of the change control environment; however,
                 our testing of operating effectiveness covered only the period of start
                 of the fiscal year through March 2008, since no changes were made
                 to CAS and FPD from April through the remainder of the fiscal year.
 TSA-IT-08-23    Coast Guard’s controls over the scripting process remain ineffective.                     09-23
                 Deficiencies were noted in controls over script implementation,
                 approvals and testing, as well as active script modification. In
                 addition, Coast Guard has not maintained or developed a population
                 of scripts run since the inception of CAS in 2003 nor has it
                 performed a historical analysis of script impact on the cumulative
                 balances in permanent accounts of the financial statements.
                 Specifically:
                   � Coast Guard lacks a formal process to distinguish between the
                     module lead approvers for script approval requests;
                   � The Procedures for Data Scripts do not specifically state the
                     testing and documentation requirements for blanket approval
                     scripts and this policy remains in draft form;
                   � Coast Guard does not monitor scripts run in the database
                     through audit logging and has not developed a technical
                     solution to monitor who accesses the database through SQL


                                                         19

      Information Technology Management Letter for the FY 2009 TSA Financial Integrated Audit
                                                                                                    Appendix C
                                  Department of Homeland Security
                                Transportation Security Administration
                           Information Technology Management Letter
                                          September 30, 2009


                                                                                               Disposition
NFR No.         Description                                                              Closed         Repeat

                     Navigator to run scripts or review what scripts are run;
                   � The Script Tracking System does not consistently include all
                     testing, approval, and implementation documentation for all
                     scripts; and
                   � Coast Guard has not completed PRP documentation for all
                     scripts executed since their implementation.
                 Additionally, although Coast Guard did conduct an examination with
                 an external contractor organization, we have determined that the
                 analysis was incomplete. Specifically, due to the many limitations
                 over scope, it did not consider the full population of scripts run at
                 FINCEN currently or since the inception of CAS. Furthermore, the
                 analysis did not properly evaluate scripts as to financial statement
                 impact, including current versus prior year effect.
 TSA-IT-08-24    Although Coast Guard Headquarters is in the process of completing         X
                 background investigations for all civilian employees, this has not
                 been completed. Additionally, Coast Guard has set its position
                 sensitivity designations to Low for the majority of its employees.
                 However, DHS requires position sensitivity designations no less than
                 Moderate which equates to a Minimum Background Investigation
                 (MBI). Therefore, we determined that the conditions noted in prior
                 year have not been remediated. (1)



     (1): The TSA NFRs listed as closed were based upon exceptions identified at Coast Guard
     from previous years. These NFRs were not closed due to Coast Guard remediating the
     exceptions during the year, but instead it was determined that they would be closed from a
     NFR delivery perspective.




                                                        20
 


      Information Technology Management Letter for the FY 2009 TSA Financial Integrated Audit
                                                                                                               Appendix D
                               Department of Homeland Security 

                             Transportation Security Administration 

                        Information Technology Management Letter
                                       September 30, 2009




                                                                      u.s. noparlmon' orl/om.lan,l Se<urby

                                                                      Off. .. 0/ Fj",,1tCO and Adm/niJlmJio"
                                                                      601 S<>uIJl It" Strc<:t. TSA_14
                                                                      Arling.on. VA 20~98.(;()'4

                                                                      Transportation
                                                                      Security
                                                                      Administration


     Frank DeITer
     Assistant Inspector General, Information Technology Audits
     Department of Homeland Security
     Officc of Inspcctor General
     245 Murray Lane, SW
     Building 4 IO
     Washington, DC 20528


     Dear Mr. DefTer:

        Thank you for the opportunity to comment on the Draft Report: Information Technology
     Managemenr Leiterfor the FY 2009 Transporration Security Administration (fSA) Financial
     Integrated Audit. TSA appreciated your recommendations included in your report and we look
     forward to working with your team during the upcoming FY 2010 audit.


                                        Sincerely.



                                          VI        lcholson
                                        Assistant Administrator and Chief Financial Officer
                                        Office of Finance and AdminiMration.




     Filt: lOoo.2.I_a                                                               "-w.... I.a.gov




                                                     21
 


Information Technology Management Letter for the FY 2009 TSA Financial Integrated Audit
                                                                               Appendix E
                         Department of Homeland Security
 

                       Transportation Security Administration
 

                  Information Technology Management Letter
                                 September 30, 2009


                Report Distribution

                Department of Homeland Security

                Secretary
                Deputy Secretary
                General Counsel
                Chief of Staff
                Deputy Chief of Staff
                Executive Secretariat
                Under Secretary, Management
                Administrator, TSA
                DHS Chief Information Officer
                DHS Chief Financial Officer
                Chief Financial Officer, TSA
                Chief Information Officer, TSA
                Chief Information Security Officer
                Assistant Secretary, Policy
                Assistant Secretary for Public Affairs
                Assistant Secretary for Legislative Affairs
                DHS GAO OIG Audit Liaison
                Chief Information Officer, Audit Liaison
                TSA Audit Liaison

                Office of Management and Budget

                Chief, Homeland Security Branch
                DHS OIG Budget Examiner

                Congress

                Congressional Oversight and Appropriations Committees as Appropriate




                                           22
 


Information Technology Management Letter for the FY 2009 TSA Financial Integrated Audit
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
